CERTIFICATION
As required by Supreme Court Rule 33.1(h), I certify that the document contains 3,212 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on April 8, 2020

Counsel of Record
KAUFMAN DOLOWICH
& VOLUCK, LLP

Attorneys for Respondent
Faith G. Miller, Esq.
25 Main Street, Suite 500
Hackensack, New Jersey 07601
201-488-6655
rberns@kdvlaw.com

